HHS/OIG-Audit--"Operation Restore Trust Skilled Nursing Facility Review Conducted at Savannah Cay Manor, Port St. Lucie, Florida, (A-04-96-01136)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Skilled Nursing Facility Review Conducted at Savannah Cay Manor, Port St. Lucie, Florida," (A-04-96-01136)
December 13, 1996
Complete
Text of Report is available in PDF format (1.36 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the review was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the period from November 1, 1994 through December 31, 1995.
The Operation Restore Trust reviewers questioned $354,537 in charges reported for the 20 sample beneficiaries in our study.
This amount is comprised of $349,835 related to physical, occupational and speech therapy services rendered; $16,064 of
unallowable respiratory therapy services; $684 in unallowable pharmacy charges; $4,702 in inappropriate psychiatric services.
Therefore, we are recommending an adjustment of the above charges. In addition, we request that a focused review of all
rehab therapies and the physician orders for these therapies be conducted by the fiscal intermediary and State agency in
order to recoup overpayments made to this skilled nursing facility and to implement corrective action by the facility.